Report on Audit of the Inter-American Foundation’s
Financial Statements for Fiscal Years
2004 and 2003

Audit Report No. 0-IAF-05-002-C

November 15, 2004




                    Washington, D.C.
November 15, 2004


MEMORANDUM

FOR:           Inter-American Foundation President, David Valenzuela

FROM:          AIG/A, Bruce N. Crandlemire

SUBJECT:       Report on Audit of the Inter-American Foundation’s Financial Statements for Fiscal
               Years 2004 and 2003 (0-IAF-05-002-C)

Enclosed is the final report on the subject audit. We contracted with the independent certified public
accounting firm of Gardiner, Kamya & Associates, P.C. (GKA) to audit the financial statements of the
Inter-American Foundation as of September 30, 2004 and 2003 and for the years then ended. The
contract required that the audit be performed in accordance with generally accepted government
auditing standards; generally accepted auditing standards; Office of Management and Budget (OMB)
Bulletin 01-02, Audit Requirements for Federal Financial Statements; and the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual.

In its audit of the Inter-American Foundation (IAF), Gardiner, Kamya & Associates found;

• the financial statements were fairly presented, in all material respects, in conformity with U.S.
generally accepted accounting principles,

• IAF had effective internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations,

• IAF’s financial management systems substantially complied with the requirements of the Federal
Financial Management Improvement Act of 1996 (FFMIA), and

• no reportable noncompliance with laws and regulations it tested.




                                                   1

In connection with the audit contract, we reviewed GKA’s report and related documentation. Our
review, as differentiated from an audit in accordance with U.S. generally accepted government
auditing standards, was not intended to enable us to express, and we do not express, opinions on
IAF’s financial statements or internal control or on whether IAF’s financial management systems
substantially complied with FFMIA; or conclusions on compliance with laws and regulations.
GKA is responsible for the attached auditor's report dated October 22, 2004 and the conclusions
expressed in it. However, our review disclosed no instances where GKA did not comply, in all
material respects, with applicable standards.

The report does not contain recommendations and IAF has elected to not formally comment on the
report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of GKA
during the audit. If you have questions concerning this report, please contact Andrew Katsaros at
(202) 712-4902.




                                                 2

INTER-AMERICAN FOUNDATION

           (IAF)





         FINANCIAL STATEMENTS

        SEPTEMBER 30, 2004 and 2003


                   and


 INDEPENDENT AUDITOR’S REPORT THEREON





                     3

                           INTER-AMERICAN FOUNDATION (IAF)


                                       TABLE OF CONTENTS



                                                                       Page No.


Management’s Discussion and Analysis (Overview)                            8


Independent Auditor's Report on Financial Statements                      28


Balance Sheet                                                             29


Statement of Net Cost                                                     30


Statement of Changes in Net Position                                      31


Statement of Budgetary Resources                                          32


Statement of Financing                                                    34


Notes to Financial Statements                                             36


Independent Auditor's Report on Internal Control                          51


Independent Auditor's Report on Compliance with Laws and Regulations       53





                                                   4

                  Inter-American Foundation

                 Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the Caribbean.
Created in 1969 as an experimental program, the IAF responds to innovative, participatory and
sustainable self- help development projects proposed by grassroots groups and organizations that
support them. It also encourages partnerships among community organizations, businesses and local
governments directed at improving the quality of life for poor people and strengthening democratic
practices. To contribute to a better understanding of the development process, the IAF shares its
experiences and the lessons it has learned.


The Inter-American Foundation is governed by a nine-person board of directors appointed by the
president of the United States and confirmed by the U.S. Senate. Six members are drawn from
the private sector and three from the federal government. The board is assisted by an advisory
council. A president, appointed by the board, serves as the Inter-American Foundation’s chief
executive officer, managing a staff of 47 employees based in Arlington, Virginia. The IAF is
organized into four offices; Executive, which houses the Office of the President and General
Counsel; External Affairs; Operations, which houses Evaluation, Financial Management,
General Services, Human Resources and Information Management; and the Program Office.

I would like to review the state of the Inter-American Foundation and the unique contribution we
make in advancing the values and long-term foreign policy objectives of the United States in its
relationship with Latin America and the Caribbean.

I begin with the Congressional Declaration of Purpose for the IAF contained in its enabling
legislation dated December 30, 1969.

   “The future of freedom, security, and economic development in the Western Hemisphere rests on
   the realization that man is the foundation of all human progress. It is the purpose of this section
   to provide support for development activities designed to achieve conditions in the Western
   Hemisphere under which the dignity and the worth of each human person will be respected and
   under which all men will be afforded the opportunity to develop their potential, to seek through
   gainful and productive work the fulfillment of their aspirations for a better life, and to live in
   justice and peace. To this end, it shall be the purpose of the Foundation, primarily in
   cooperation with private, regional, and international organizations, to:




                                                  5

       •	 Strengthen the bonds of friendship and understanding among the peoples of this
          hemisphere.

       •	 Support self-help efforts designed to enlarge the opportunities for individual
          development.

       •	 Stimulate and assist effective and ever wider participation of the people in the
          development process.

       •	 Encourage the establishment and growth of democratic institutions, private and
          governmental, appropriate to the requirements of the individual sovereign nations of this
          hemisphere.”


Friendship, understanding, self- help, participation, and democracy are what make the IAF a value
driven organization espousing the core of what makes the United States a unique nation. In this
manner, the IAF has played and continues to play a critically important role in helping Latin
America and the Caribbean achieve justice and peace by encouraging its people and institutions to
build democratic practice and to engage in the practice of community self- help. The IAF was
charged with helping advance human progress in Latin America and the Caribbean by drawing on
the experience and values that made the United States a beacon of prosperity and democracy for the
world. In understanding the role of the IAF, it is important to keep perspective of the larger purpose
that the IAF plays in development assistance, lending support to a proven path based on the will and
determination of people at the grassroots to make a better life for themselves and future generations.
The IAF’s approach to development, from the bottom up, is now recognized widely by other
development practitioners, such as the World Bank, the United Nations Development Program
(UNDP), USAID, and others.

The IAF, in pursuit of its mission, is clearly recognized as a leader in three strategically important
areas: 1) demonstrating the relationship between grassroots self- help activities and strengthening
democratic practice and local governance; 2) building bridges to the private sector and engaging its
talents and resources for sustainable grassroots development; and 3) exploring the connection
between the remittance flow from migrants and improving the quality of lives and opportunities for
communities of origin.

The strategic nature of the IAF’s work and the high recognition and visibility it enjoys in Latin
America and the Caribbean, offers it a unique opportunity to highlight new approaches to reducing
poverty based on building local capacities and fostering a culture of self- help and self reliance. The
IAF has been called upon by a wide range of organizations for its expertise and track record in a
people-centered approach to development.

The challenge for the IAF is to continue acting as an innovator and trend-setter. As a small agency
with limited resources, its creative grant- making activities must be coupled with a focus on learning
and understanding the lessons learned from the projects that it supports. It must continue to
strengthen its responsive approach, for the best ideas will come from the people themselves. The
IAF genius is to identify innovation and opportunity, and be willing to assume the risk supporting it,


                                                   6

much in the way of venture capitalists. We have learned that local cooperation and partnering are
critical to sustainable gains. People must take ownership of their own solutions. Democracy is built
through practice and the engagement of citizens.
The IAF is probably more relevant today than at any other time. The IAF approach is most effective
in a democratic environment. Yet, democratic governance can only become firmly rooted by
implementing the IAF’s focus on local initiative, collaborative action, and public/private
partnerships.


I am pleased to introduce the IAF’s Fiscal Year 2004 financial statements, which reflect the IAF’s
quest to become increasingly innovative and independent while adhering to its core principles.

The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordanc e with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers’ Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

Signed:




Linda B. Kolko
Acting President




                                                  7

                        MANAGEMENT DISCUSSION AND ANALYSIS


The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots and local development programs. The IAF
learns from its experience, and uses the lessons learned to improve its own grantmaking decisions
and to advance the knowledge and success of development practitioners, donors, and policy makers.


Mission and Organizational Requirements

Congress created the IAF in 1969 to carry out the mission set forth in the legislation quoted above on
behalf of the American people.

The IAF strategic plan for 2003-2007 and the Fiscal Year 2006 presentation to the Office of
Management and Budget were based on four main institutional goals derived from this statutory
basis, 30 years of experience and the current context:

       Support the most promising and innovative means to foster sustainable grassroots and local
             development and economic independence.


       Foster communication, learning and reflective practice.


       Make the most of available resources (efficiency, counterpart).

       Be the preeminent organization in the areas of grassroots development and 

              participatory democracy in Latin America and the Caribbean.



Central to the IAF's approach to development is its posture of responsiveness. IAF neither designs
nor implements projects. Rather, it responds with attentiveness, analysis, and, when approved, grant
funds for development ideas and projects designed by community level organizations and local non­
governmental organizations in Latin America and the Caribbean. Listening to and supporting the
best development ideas coming from the grassroots is the most important way in which IAF achieves
all four of the goals assigned to it in the original legislation.

The IAF seeks to reflect the values it fosters. In both the programs it supports and its internal
processes, the following principles are essential: innovation, partnership, self- sufficiency,
democratic practices, and social responsibility.

The IAF carries out its work based on three main instruments: grant- making, results measurement
and dissemination, and learning activities.




                                                   8

The Fiscal Year 2004 Accomplishments

More than just another donor, the IAF sees itself as an innovator in fostering effective self-
governance and sustainable grassroots development. Throughout Fiscal Year 2004 the IAF
continued to refine its contribution to development assistance by, for example, identifying and
disseminating best practices for promoting grassroots development; by serving as expert grant- maker
with the architects of the Millennium Challenge Corporation (MCC); by leveraging the financial and
technical resources of other donors through creative initiatives; by examining the financial, technical
and cultural flows from transnational communities as well as their impact in the communities of
origin; and by developing the funding and learning potential of RedEAmérica, the Inter-American
Network of Corporate Foundations.

The IAF neither designs nor implements projects. Rather, it responds to the best development
proposals it receives. It carefully selects from its very large pool of proposals those with the greatest
potential for lessons. The IAF is instituting mechanisms for harvesting those lessons. In-depth
evaluations of selected projects will complement normal reporting with information to be
incorporated into the IAF’s criteria and procedures and made available to the development
community.

Public Diplomacy

The IAF had its most active year to date representing the United States and projecting its work in
myriad ways. The IAF was a featured speaker in more than a dozen conferences, seminars and
round table discussions in the United States and in Latin America and the Caribbean. The IAF has
also organized conferences on topics dealing with Latin Americans of African descent, corporate
social responsibility, local economic development, and municipal management. On two occasions,
the IAF was included in the official delegation at summit follow-up conferences dealing with
decentralization and local government, and social development. The IAF joined other organizations
in organizing events, such as the World Bank’s Global Conference on Local Development. The IAF
played a major role in the 2004 Inter-American Conference of Mayors, hosted by Miami-Dade
County by sponsoring five simultaneous training workshops for over 500 mayors during the second
day of the conference. The IAF helped sponsor the world conference of the Institute for Cultural
Affairs held this year in Guatemala.

In addition to the Grassroots Development Journal, the IAF launched its first book of photographs of
its beneficiaries in conjunction with the United States Mission to the Organization of American
States (OAS). As part of the book launching, the IAF organized a seminar in the Hall of the
Americas and invited selected grantees to talk about their experience with local development,
corporate outreach, and use of remittances for economic development in home communities.




                                                    9

Inter-Agency Cooperation

The IAF is a regular member of the Inter-Agency Summit follow-up, which is chaired by Assistant
Secretary for Western Hemisphere Affairs, Amb. Roger Noriega and co-chaired by Amb. John
Maisto, U.S. Permanent Representative to the OAS. The IAF contributes on several of the 18 topics
which are tracked by the Summit process and which form the framework for U.S. policy in this
Hemisphere. These include issues such as poverty reduction, small business, decentralization,
indigenous populations, remittances, and corporate social responsibility.

As mentioned earlier, the IAF sponsored a joint event with the U.S. Mission to the OAS to illustrate
U.S. Government programs dealing with social and economic development. The IAF was also
invited to form part of the U.S. delegation at OAS conferences in Mexico and Chile.

The IAF assisted the World Bank in organizing a global conference on local development with over
500 delegates. The IAF joined the Inter-American Development Bank (IDB) in sponsoring, for the
third time, a hemispheric conference on corporate social responsibility, which was held in Mexico in
September, 2004. The IAF also plays a leadership role in the Inter-Agency Working Group on Race
and Ethnicity, in conjunction with the World Bank, the Inter-American Dialogue, the Pan American
Health Organization, and the IDB. The IAF coordinates and consults with a broad range of other
international organizations, such as the United Nations Development Program, the Andean
Development Corporation, the International Youth Foundation, the Ford Foundation, and others.
The IAF president also serves as Board Chair of Hispanics in Philanthropy (HIP), a network of
several hundred persons of Hispanic origin who work in gr ant making. HIP is also a major grant
maker supporting Hispanic organizations in the U.S.

Corporate Outreach

The IAF manages its corporate outreach program separately, but in close coordination with the
regular grant program. The main thrust of the corporate program involves cooperation with a
hemispheric network of corporate foundations known as RedEAmérica. What distinguishes
RedEAmérica, which has doubled in membership to 55 over a two- year period, is its commitment to
funding grassroots self- help programs using the IAF as a model. Through RedEAmérica, the IAF
has literally doubled its capacity to reach poor people using a sustainable development approach.
Over 900 grants were made to community organizations in the ten countries with RedEAmérica
membership. Our corporate foundation partners match IAF resources dollar for dollar. In Fiscal
Year 2004, six cooperative agreements with new corporate partners and six amendments to existing
corporate partnerships were awarded.

RedEAmérica continues to grow and is devising new programs to help its membership and increase
the flow of resources. An ambitious initiative involves establishing a global fund that will raise
resources from multinational corporations, foundations and international development banks to
increase the stream of resources for poverty reduction and local development.




                                                 10

The IAF is also assisting a new network of 20 institutions and organizations from throughout Latin
America and the Caribbean that specialize in promoting corporate social responsibility.



Evaluation Program

In September 2003, the IAF began an annual evaluation of 10 projects randomly selected from the
IAF’s projects that expired in the previous year. The evaluation focuses on changes, expected and
unexpected, that the projects generated on various levels; the processes and development strategies
that achieved the observed changes; and the projects’ responsiveness to community needs. The
Getulio Vargas Foundation (FGV) of Brazil was awarded a five-year contract and already submitted
the first 10 reports. FGV will present a comparative analysis of the 10 evaluations and guidance on
how to improve the IAF grant-making process to IAF staff in October 2004.

The 10 new projects for the second round of evaluations have been selected randomly out of a list of
57 projects that ended in Fiscal Year 2003. Field work and analysis is scheduled to start in October
2004.

The annual IAF Grant Auditors Training Workshop was held in Argentina May 3-7, 2004. The
Office of the Inspector General of USAID provided training on quality assessment, internal controls
and detection of fraud. The conference was very successful, with active participation of the 15 field
contract auditors, the USAID Regional Inspector General (RIG) and IAF staff. The field auditors
especially appreciated the technical training they received from the RIG, who was quite impressed
with the IAF’s audit team and its grant audit program.


Internal Operations

The Information Technology Group (ITG) of the Bureau of the Public Debt (BPD) completed a
year-long security review initiated in July 2003 of the IAF enterprise network system and Grant
Evaluation and Management System (GEMS). In July 2004, the security certification and
accreditation of the agency’s systems was completed in accordance with the Office of Management
and Budget Circular A-130, Appendix III; NIST Special Publication 800-37, Guide for the Security
Certification and Accreditation of Federal Information Systems; and IAF policy on system
accreditation.

Over the past month, the OIG/USAID conducted a review of the IAF’s compliance with Federal
Information Security Management Act (FISMA) reporting requirements. The audit report states that
the IAF is in compliance with FISMA requirements. The only finding was the need to test the IT
continuity of operations plan for which the IAF already is scheduled to do so within the next three
months once new hardware is in place. The IAF IT staff were impressed with the level of
knowledge and professionalism of the OIG audit team, and very pleased with the opportunities
afforded through this inter-agency relationship to learn from and continue to exchange ideas with
OIG staff to further enhance the IAF’s security program.




                                                 11

The Grant Program

The IAF completed its Fiscal Year 2004 grant program by obligating close to one hundred percent of
available resources authorized for Fiscal Year 2004. The more than 1200 proposals received from
throughout Latin America and the Caribbean were reviewed on a competitive basis resulting in 60
new grants and 40 grant supplements. This brought the portfolio of active grants up to 253.

The Foundation has strengthened its procedures for awarding grants, monitoring progress and
measuring results. A competitive grants program ensures transparency in the awards process and
equal opportunity for prospective grantees. The proposal review system rewards innovation, local
cooperation, and beneficiary ownership. U.S. Embassy vetting for all grants helps protect the
Foundation from inadvertently funding inappropriate groups or activities. The Foundation is
continually perfecting its results measurement framework. In Fiscal Year 2004, the IAF received
results information on 97 percent of active grants, and performed 10 full evaluations of randomly
selected grants that expired that year. All grants over $35,000 are audited by IAF contracted and
trained local auditors.

Grants Funded in Fiscal Year 2004

In Fiscal Year 2004, the IAF funded 60 new grants and 40 grant supplements for a total obligation of
$14,263,790, of which $5,716,346 was in appropriated funds and $8,547,444 in SPTF Funds. These
funding actions are divided among primary program areas as follows:

Primary Program Area                       Number of New Grants                Amount
                                           & Grant Supplements
Corporate Social Investment                                  12              1,671,780
Business Development and Management                          24              4,332,454
Food Production and Agriculture                              28              3,382,919
Education and Training                                       27              3,422,559
Research and Dissemination                                     5               681,150
Cultural Expression                                            2               577,908
Community Services (Housing)                                   1               155,500
Ecodevelopment                                                 1                39,520
TOTAL                                                       100            $14,263,790


We detail below our accomplishments of IAF’s objectives for Fiscal Year 2004. For ease of
reference the objectives are listed below the relevant goal from the Strategic Plan, and the
accomplishments follow the corresponding objective.




                                                 12

           Accomplishment of Goals and Objectives of the Fiscal Year 2004 Program


                                      Strategic Plan Goal I:

                    Support the most promising and innovative means to foster 

            sustainable grassroots and local development and economic independence.


Performance Goal 1.1: Adopt a broader, more competitive and transparent selection process which
takes full advantage of internal sectoral expertise (to be refined from pilot exercise in Fiscal Year
2003).

Performance Meas ure: The changes introduced in Fiscal Year 2003 were implemented in Fiscal
Year 2004 when proposals received totaled almost 1200, exceeding all expectations.

Eighty-five percent of the submissions were from organizations with no previous IAF support. The
influx taxed the staff’s administrative and processing capabilities, but all proposals were reviewed
and rated against established criteria in the time allotted. Proposals, rated as A, B or C, were
reviewed by one country expert and by at least one other staff member with subject- matter expertise.
More than 80 percent were rated by a second subject- matter expert. Proposals that “failed” were
charity-oriented or lacked any indication they would become self-sustaining.

Some 300 proposals were judged to merit further consideration by sub-regional staff “teams” for
their potential contribution to learning, their technical feasibility, and for thematic and geographic
coherence. Almost 100 proposals emerged from this culling for field visits and ranking by
Foundation representatives during November and December. The top-ranked 50 to 55 were
presented and discussed at Foundation-wide sessions ; representative s took the questions, critiques
and suggestions back to the prospective grantees for clarification. Several proposals required a
second visit. By early summer, documentation was being processed and submitted to senior
management for approval and to Congress and the respective U.S. Embassies for clearance. The
process satisfied the goal as stated.

Performance Goal 1.2: Use results of feasibility study on non-grant financing mechanisms to
initiate select activities.

Performance Measure: Beginning this year, the IAF and the International Guarantee Fund (IGF)
will support a joint loan guarantee fund that helps qua lifying organizations obtain commercial loans
for productive projects. The guarantee fund totaling $400,000 (of which $200,000 is IAF funding)
will leverage $1.5 million in loans from local banks.

Performance Goal 1.3: Continue to help and to draw attention to African descendant communities ­
who comprise half the population living below the poverty line in Latin America and the Caribbean
and indigenous peoples.




                                                   13

Performance Measure: The Inter-American Foundation continues to be one of the leading
development institutions working with communities of African descent in the Americas. In Fiscal
Year 2004 the Inter-American Foundation served as the sponsoring agency for the first regional
capacity-building workshop on socio-economic development for African-descendant communities.
This historic event, held in La Ceiba, Honduras, February 1-4, 2004, was attended by representatives
of the World Bank, Inter-American Development Bank, Inter-American Dialogue, Pan-American
Health Organization, Ford Foundation and the Department for International Development (DFID­
UK) and by 160 community leaders from 18 countries. President Ricardo Maduro of Honduras
closed the interactive workshop that included visits to two Garifuna communities. Plenary sessions
were attended by U.S. Ambassador to Honduras Larry Palmer; Representative Epsy Campbell of
Costa Rica; Edgar Torres, vice president of Colombia’s House of Representatives, Elías Lizardo,
Honduras’ Minister of Health; and other community leaders and technical specialists.

Additionally, the IAF’s grassroots approach to African descendant communities was explained at
several important development meetings including the prestigious Allied Social Science
Associations’ gathering of economists and the Inter-American Development Bank Sustainable
Development Program. In Fiscal Year 2004 the IAF supported four projects with African
descendant communities with grants totaling more than $580,000. The IAF has initiated several
proposal identification mechanisms and partnerships which will potentially double funding for
communities of African descent in Fiscal Year 2005.

The IAF continued its emphasis on incorporating indigenous peoples and other disadvantaged ethnic
groups into the public life of their societies through improved economic opportunities, public-private
partnerships and recognition of their rights. Initiatives with indigenous communities include the
construction of community museums to heighten community identity and increase income; the
development of leadership and weaving skills; and improved product development among
indigenous artisans, especially women. In September 2004, the IAF will bring 45 representatives of
eight indigenous communities to participate in the festivities celebrating the opening of the
Smithsonian’s National Museum of the American Indian in Washington D.C. A goal of the museum
is to build networks among indigenous peoples and highlight their accomplishments.

These efforts have been illustrated and disseminated in publications. The IAF journal Grassroots
Development reported in 2004 on the above- mentioned Inter-American Consultation event,
“Leadership and Socioeconomic Development for Communities of African Descent in Latin
America and the Caribbean,” hosted in La Ceiba by Organización de Desarrollo Étnico Comunitario,
a former IAF grantee. The same issue covered IAF grantee CRIOLA’s seminar in Rio de Janeiro on
the challenges Afro-Brazilians must overcome to improve their standard of living. The 2004 journal
also reviewed Thomas Carroll’s book, Construyendo Capacidades Colectivas, which examines the
organizational capacities of indigenous federations in the Andean highlands; an excerpt from the
book accompanied the review. The journal also contains an article from Peru on how a traditional
Andean self- help mechanism escalated into a project to build a drivable road linking isolated
communities.

IAF representative Kevin Healy’s Llamas, Weavings, and Organic Chocolate: Multicultural
Grassroots Development in the Andes and Amazon of Bolivia (Notre Dame Press: 2001) continues to



                                                 14

generate dialogue in academic and policy circles. In its September issue The American

Anthropologist reviewed the book on IAF’s pioneering work with indigenous projects in Bolivia. 

Healy was the luncheon speaker at the Conference on Indigenous Leadership Challenges to the Old 

Guard in Bolivia, Ecuador and Peru, featuring Andean academic specialists and held May 21 by the 

Office of External Research of the U.S. Department of State’s Bureau of Intelligence and Research. 


In March Healy spoke on IAF-supported mapping projects at the Forum on Indigenous Community 

Mapping in Vancouver, Canada. In February he spoke on Latin American indigenous movements to 

the FLAG-Latin America Group of retired Foreign Service Officers. Later in the month, he oriented 

Foreign Service Officers assigned to Latin America and shared lessons learned from IAF’s 

experiences with staff from the World Bank and Inter-American Development Bank. Healy also 

spoke about the IAF at Eastern Mennonite University and The Washington Center for Internships 

and Academic Seminars. 


The following grants funded in Fiscal Year 2004 relate to Performance Goal 1.3:

Associação das Comunidades Negras Rurais Quilombolas do Maranhão (ACONERQ) in Brazil 

was awarded $25,000 to plan to build the capacity of more than 80 rural community associations 

through access to information and opportunities for dialogue on local development. 


Associação de Desenvolvimento Comunitário Rural de Barra do Brumado (Brumado), was 

awarded $187,733 over thr ee years to improve the income of residents of three communities in the 

state of Bahia, Brazil, by constructing a fruit and jelly-processing factory and providing related 

technical assistance, training and marketing support. 


Terra Peninsular A.C. (Terra) was awarded $345, 270 over three years to provide 350 indigenous

Yuma the opportunity to strengthen their organizations, implement income-generating projects and 

promote the environmental sustainability of fragile areas in northern Baja California, Mexico. This 

project targets expanded crafts production and sale and the growth of ecotourism businesses through 

environmentally responsible community management. 


Asociación para el Desarrollo de la Costa Atlántica (PANA PANA) received a supplemental 

award of $99,000 to support sustainable production of food and forestry products, marketing, micro-

enterprise development, rehabilitation of infrastructure and equipment, and strengthening base

groups in eleven Miskito communities in Nicaragua. 


Fundación para la Investigación Antropológica y el Etnodesarrollo (ASUR) was awarded 

$308,918 over two years toward reviving traditional weaving techniques and designs and improving 

the skills, income, self-esteem and cultural pride of 370 indigenous Bolivians, mostly women, in the

Calcha and Tinquipaya zones of the Potosí region. The project includes the development of four

weaving centers as well as training and technical assistance in product development, quality control, 

promotion and marketing, as well as in cultural research and institutional organization. 


Museo de Arte Niños Andinos "Ayllu Yupaychay" (Yupay) was awarded $35,610 over eight 

months to formalize its teaching methodology using art as the vehicle for providing elementary

education to indigenous children in remote Andean villages in Peru. 





                                                  15

                                     Strategic Plan Goal II

                          Communication, learning and reflective practice.


Performance Goal 2.1: Work with Inter-American Network of Corporations and Corporate
Foundations and Actions (RedEAmérica) toward standardizing information collection and analysis.

Performance Measure : The IAF continued to help organize a hemispheric program of exchange
visits and learning workshops among RedEAmérica members. A draft definition of grassroots
development was shared and members reached a consensus on how it relates to broader themes of
development and society. In addition, RedEAmérica developed basic working “principles” and a
learning strategy for identifying key aspects to be documented and measured. First drafts of key
indicators for grassroots development and guidelines for funding and supporting projects were
shared among members. Also shared were best practices and efforts to standardize vocabulary that
will facilitate reporting.

Performance Goal 2.2: Use separate unit within the operations office to maximize information
sharing with the IAF’s automated grant evaluation and management system, develop greater internal
capacity to analyze data and conduct more in-depth inquiries.

Performance Measure : Over the course of the year a close collaborative relationship developed
between the Program Office and the Office of Evaluation. The latter is included as much as possible
in program processes to facilitate understanding and incorporation of the goals of the Office of
Evaluation. Evaluation staff participated as expert readers in the proposal review and participated in
the country program presentations by identifying learning possibilities and selecting performance
indicators for each project. A closer collaboration was also developed with the representatives and
data verifiers for each country, facilitating the flow of practical information and the learning process,
for the IAF as well as for grantees. The Evaluation Office also improved the format and distribution
of its internal newsletter, Enterese.

The Evaluation Office awarded a five- year contract for external evaluation to the Getulio Vargas
Foundation, a Brazilian institution with expertise in academic research and evaluation. The Program
Office collaborated intensively with the Evaluation Office in the design of the external evaluations
program, selection of the contractor and review of evaluations contracted. Findings will be
incorporated into Program Office operations. Ten projects chosen at random from all IAF grants
comp leted in Fiscal Year 2003 were evaluated and analyzed in Fiscal Year 2004. Specific areas of
inquiry included:




                                                   16

           •	 the degree to which the grantee organization and the beneficiary population achieved
              the objectives set forth in the project description of the grant agreement;
           •	 the appropriateness and relevance of the indicators selected from the IAF’s
              Grassroots Development Framework (GDF) to measure results of each grant;
           •	 the direct and indirect changes, expected and unexpected, at the individual,
              organization and regional/societal levels as reflected by measurable indicators as well
              as subjective assessment ;
           •	 how the processes and development strategies contributed toward the observed
              changes;
           •	 the effectiveness of the administrative processes for proposal review, administration
              and financial oversight as well as data verification;
           •	 the degree to which each project responded to community needs or to a topical
              interest of the IAF.

FGV is preparing a summary of its findings for presentation to IAF Staff in October. Preliminary
analyses reveal that projects have achieved most goals and objectives and have contributed to the
development of the grantee organization and the community.

A grant funded in Fiscal Year 2004 supports Performance Goal 2.2:

Pronatura Noreste, A.C. (PNE) was awarded $290,600 over three years for a project that will
involve fishing families in the selection of indicators to measure their reduced dependence on
harmful fishing practices and the improved sustainability of the Laguna Madre de Tamaulipas in
Mexico. The Evaluation Office will work with PNE and the Program Office on a participatory
methodology for monitoring and evaluating the results of the project.

Performance Goal 2.3: Present cutting edge development analysis that encourages additional
resources to flow to Latin America and the Caribbean.

Performance Measure : The IAF has commissioned Lester Salamon of the Johns Hopkins
University to study the role of the private sector in fostering better living conditions in poor
communitie s of Latin America and the Caribbean. Dr. Salamon began work in Fiscal Year 2004 and
expects to complete the project in Fiscal Year 2006. He will summarize his findings for Grassroots
Development, the IAF’s journal, and in a book.

The Program Office has collaborated with RedEAmérica on its studies and presentations directed at
mobilizing corporate resources for grassroots development and gauging the impact. The IAF has
collaborated with the World Bank, the Inter American Development Bank, USAID, the Canadian
International Development Agency and several private-sector U.S. foundations in searching for more
effective ways to use their resources to address development generated from the grassroots rather
than from above. Of interest to donors, the IAF is sponsoring a study on effective strategies to
promote democratic local governance as a development tool.




                                                 17

In this connection, the IAF is reviewing a grant proposal from the Inter - American Democracy
Network (IADN) to institute a program of “training of trainers” to moderate deliberative grassroots
forums and conflict management among its more than 250 member organizations. This project is
designed to generate more focused self-diagnoses by communities and thus more relevant
development activities. The IADN effort is being coordinated with RedEAmérica, which wishes to
impart those skills to member foundations.

Grassroots Development 2004 features an interview with Miguel Krigsner, founder and president of
Boticario, a Brazilian cosmetic manufacturer. Under Krigsner, Boticario earmarks 1 percent of its
gross for social investment. Of that amount, 50 percent is channeled to Boticario’s Foundation
whose initiatives in self- help are conducted in partnership with the IAF through an eco-development
fund to which each party committed $550,000, the most significant single corporate donation to an
IAF partnership. An article on the joint project that led to the fund and on subsequent projects runs
in tandem with the interview.

The University of Florida is using the article “Stages of Micro-Enterprise Growth in the Dominican
Informal Sector,” in Grassroots Development 1983, Vol. 9, No. 2, in a class on Caribbean
anthropology. Brown Reference Group of London, England, is reprinting “The Life Cycle of A
Corporation’s Socially Responsible Initiative: Inti Raymi Goldmine” by Kellee James, an IAF
intern, in PRO/CON 4, a six volume set aimed at improving and increasing critical thinking among
15 to 18 year olds in the U.S. market. James’ article will appear in the volume “Poverty and Wealth”
in connection with materials for use in debating whether transnational corporations help eradicate
poverty in poor nations. The Inti Raymi Foundation is a former IAF grantee and a founding member
of RedEAmérica.

The following grants funded in Fiscal Year 2004 support Performance Goal 2.3:

Centro de Iniciativas para el Desarrollo Local (La Choza) was awarded $76,200 over two years
toward its partnership with five municipalities and citizen councils in the province of Corrientes,
Argentina, to train municipal and council representatives to identify local development priorities and
the best use of public funds. The project will benefit approximately 2,000 low- income men and
women participating in the decision- making.

Asociación para el Desarrollo Local (ASODEL) was awarded $181,815 over 18 months to
proving training and technical assistance to 660 residents of 71 villages and 15 communities in three
districts in the department of Cajamarca, Peru, for the formulation of an integrated local
development plan and budget expected to benefit 17,136 local residents.




                                                  18

                                    Strategic Plan Goal III:

                  Make the most of available resources (efficiency, counterpart).


Performance Goal 3.1: Collaborate with a broader range of donors in a broader array of
arrangements.

Performance Measure : The IAF is negotiating a co- financing agreement with the Multilateral
Investment Fund (MIF) of the Inter American Development Bank (IDB) to partner in support of
grassroots development projects involving a transnational component. We expect this to be
operational during Fiscal Year 2005.

Performance Goal 3.2: Increase the number of grants made by RedEAmérica Network.

Performance Measure : As of July 10, 2004, 18 agreements were made with 30 RedEAmérica
members, six during Fiscal Year 2004, enabling IAF to reach poor and isolated communities that the
IAF would not have been able to easily access alone. IAF’s corporate partners match IAF funding at
least dollar for dollar in all the agreements.

In Fiscal Year 2004, the IAF funded five bilateral, three-year cooperative agreements with members
of RedEAmérica, under which community organizations of poor people will receive small grants,
training and other support for self- help financed equally by the IAF and the corporate foundations.
The signatories will also work with other members of RedEAmérica to advance learning in the field
of grassroots development. Under these agreement s these corporate foundations will receive IAF
funding for the first year of the agreement as follows:

   •   Fundación ACAC of Uruguay, $34,000;
   •   Fundação Acesita of Brazil, $61,000;
   •   Instituto Holcim of Brazil, $63,000;
   •   Fundación Restrepo Barco of Colombia, $140,000; and
   •   Fundação Otacíllio Coser of Brazil, $76,000.

Performance Goal 3.3: Identify and support evolving relationships between immigrants to the U.S.
and their home communities in Latin America and the Caribbean.

Performance Measure : The IAF’s designated “Transnational Initiative” is a distinct area of
programmatic emphasis with a staff coordinator, a staff committee, and specific travel and related
funds for promotion and dissemination in the U.S. An external organization has been contracted to
assist research efforts. This initiative will coordinate closely with the proposed MIF-IDB
collaborative agreement (see Performance Goal 3.1, above).




                                                 19

Throughout Fiscal Year 2004, members of the IAF’s transnational committee met with immigrant
leaders in several U.S. cities and conducted site visits to counterpart organizations and projects in
migrant-sending communities in Latin America. IAF staff made many new contacts and maintained
ongoing communication with leaders of migrant organizations in several states. A brief document
was developed to provide guidance to migrant organizations interested in sub mitting transnational
proposals to the IAF. This year’s outreach efforts resulted in a noticeable increase in inquiries from
transnational organizations, as well as an increase in transnational proposals. The IAF expects
approximately 5 percent of the proposals received in Fiscal Year 2004, to have transnational
implications, a marked increase over the eight transnational proposals received last year.

Grants awarded in Fiscal Year 2004 include the following proposals with transnational support:

Asociación Salvadoreña de Desarrollo Campesino (ASDEC) was awarded $350,000 over three
years to enable 500 shrimp farmers in the Department of Usulatan, El Salvador, to improve shrimp
production, create a shrimp processing facility, and establish new local and international markets.
Individuals and hometown associations in the Salvadoran community in the U.S. and Canada will
help secure additional technical support and help identify U.S. markets.

Desarrollo Binacional Integral Indígena A.C. (DBIIAC) was awarded $257,430 over three years
for a program to increase horticulture and poultry production; promote sales of crafts and prepared
foods; support savings and credit programs; and strengthen the leadership and organizational
capacity of indigenous women in the Mixtec region of Oaxaca. The program will include training,
technical assistance, a new loan fund, and exchanges and collaboration with partner migrant
organizations in Mexico and the U.S.

Migración y Desarrollo A.C. (MIDE-ac) was awarded $312,460 over three years
 to promote the creation of “social enterprises” in regions of high out- migration and facilitate cross-
sector and transnational alliances that support income- generating projects. Primary activities will
focus on Abeja de Oro, a honey producers’ organization in Apulco, Zacatecas, Mexico, that works in
partnership with the Zacatecan Federation of Fort Worth, Texas.

To disseminate the transnational concept, the IAF’s 2003 in Review featured a full-page summary
detailing IAF’s efforts to reach out to Latin American and Caribbean migrants working together to
improve their communities of origin. The five-city series of dialogues on transnationalism and
community development concluded with a meeting in Chicago on May 25 attended by
representatives from foundations, networks of foundations, financial or technical assistance
agencies, six Latino organizations, a state agency and three universities. A similar roundtable co­
sponsored by IAF in Washington, D.C., focused on the Salvadoran transnational community and
emphasized youth and education. All dialogues have brought together local foundations, immigrant
organizations, hometown associations, municipal authorities and academics to discuss how
transnationalism impacts immigrant communities. As a result, participants are more aware of
constraints on HTAs, and new transnational links have produced ideas for projects.




                                                  20

IAF staff also explained the IAF’s work in transnationalism at public events such as the Binational
Forum of Michoacán (Mexico) Migrants and a meeting of the Civil Society Task Force organized by
the Esquel Group Foundation, Partners of the Americas and the United States National Coordinator
for the Summit of the Americas. IAF staff met formally and informally with representatives of the
Ford Foundation and Rockefeller Foundation, as well as with other regional and local foundations.
Two staff members participated in an event of the “Migration Learning Community,” a program
supported by the Ford Foundation and Migration Policy Institute with the goal of promoting and
sharing knowledge to improve transnational grant making. By strengthening communication and
relationships with other donors, the IAF hopes to better coordinate funding in this field and to
encourage new counterpart resources for transnational projects.

Performance Measure : The IAF has also identified the U.S.-Mexico border as an area of special
interest and is devoting the part-time efforts of the Deputy Vice President for Programs to advance
it. The IAF is a founding member of the U.S.-Mexico Border Philanthropy Partnership, a coalition of
nine national and regional foundations and 20 community foundations committed to fighting poverty
on both sides of the border. The program emphasizes community foundations as a mechanism to
encourage local philanthropy and grassroots democracy in potentially volatile communities. The IAF
funded three new grants this year to support nine organizations serving Mexican border
communities.

The following grants awarded in Fiscal Year 2004 support cross-border initiatives:

Fundación del Empresariado Chihuahuense A.C. (FECHAC) was awarded $230,000 over two
years to strengthen democratic participation within FECHAC and in two marginalized zones in
Cuidad Juarez. FECHAC, a non - governmental organization (NGO) of business people, will
become a community foundation with a sub-grant program directed at encouraging citizen
participation in resolving community problems.

Fundación Internacional de la Comunidad A.C. (FIC), of Tijuana, was awarded $400,000 over
three years toward strengthening its partnership with business, NGO and philanthropic leaders;
mobilizing $400,000 to match IAF contributions; bolstering the organizational capacity of more than
200 NGOs and micro-businesses; supporting more than 60 small development projects managed by
these local organizations, and benefiting 1,800 people in low- income communities in Baja
California.

Pronatura Noreste, A.C. (PNE), of Matamoros, was awarded $290,600 over three years toward
preserving the ecosystem of the Laguna Madre de Tamaulipas through alternative self-employment
for fishing families, environmental education and the construction of ecological latrines. Stronger
community organizations, reduced dependence on harmful fishing practices and the lagoon’s
improved sustainability will benefit 2,700 community members directly and 10,000 nearby residents
indirectly.




                                                21

Performance Measure : The 2004 issue of Grassroots Development, the journal of the Inter-
American Foundation, includes a photo essay on three IAF-funded projects on the U.S.-Mexico
border. Two of these grantees are themselves community foundations and the third works in
collaboration with two other community foundations. The Office of External Affairs prepared a fact
sheet describing projects on the U.S.-Mexico border supported by the IAF.

The same issue of Grassroots Development included a news item on “Salvadoran Men and Women
Abroad as Links to Local Development,” a project of IAF grantee CARECEN funded in Fiscal Year
2003. Supported by the IAF, the grantee arranged a first-ever formal meeting of representatives of
Salvadoran hometown associations in the U.S., local government officials and residents of Piedras
Blancas to prioritize development projects for assistance by overseas Salvadorans. “Technology
Transfers through Mexican Migration” by Sandy Nichols described the flow of ideas and equipment
from migrants to their home communities and the implications for development. Finally, the lead
article, Patrick Breslin’s “Thinking Outside Newton’s Box,” summarized IAF’s first response to
transnational communities, a proposal from Fundación para la Productividad el Campo (APOYO) in
Mexico. Work began in Fiscal Year 2004 on an issue of Grassroots Development planned for
calendar year 2005 which will have a focus on development in transnational communities.

During Fiscal Year 2004 IAF produced country-specific fact sheets highlighting remittance and
migration issues in several Latin American countries, as well as an inventory of scholars and
available research on transnational issues. This information informs IAF’s work and stimulates
creative thinking on new opportunities in transnational community development.




                                                22

                                    Strategic Plan Goal IV: 

              Be the preeminent organization in the areas of grassroots development

                and participatory democracy in Latin America and the Caribbean.


Performance Goal 4.1: Revise the Grassroots Development Framework (GDF) to reflect further
work on the “intangible” results in the areas of democracy, policy transformation and the like.

Performance Measure: The IAF has contracted the Getulio Vargas Foundation of Brazil to design a
new evaluation protocol and apply it to 10 completed projects. The goal is to incorporate better
evidence of the intangible results from well designed, well managed projects. Additionally, the
Evaluation Office is reviewing the available evidence on the intangible requirements of sustainable
grassroots development.

The Program Office is sponsoring a major state-of-the-art survey on measures of civic capacit y to
incorporate into a modified GDF. The intent is to give the GDF the solid conceptual framework, as
well as the specific operational guidelines, to document the evidence of this capacity as it emerges.
The World Bank, USAID, the IDB and the Canadian Agency for International Development have
expressed an interest in this IAF initiative as a complement to their own efforts in community
development.

Performance Goal 4.2: Broaden and deepen dialogue with other experts and practitioners studying
democracy development as an experiential, rather than pedagogical, learning process.

Performance Measure: The IAF is collaborating closely with other donors also focused on the
residual capacity for self governance as the lasting impact of development projects. IAF staff ha ve
helped organize a major conference on local development at the World Bank and a one-day seminar
on democratic citizenship at the IDB. They have made related presentations to USAID, CIDA, the
Organization of American States and have explained the connection between grassroots democracy
and sustained grassroots development to the Mexican Center for Philanthropy (CEMEFI), the Red de
Participación y Justicia in Bolivia, the Corona Foundation in Colombia, the World Movement for
Democracy Conference, the Institute for Democracy in South Africa (IDASA), the CIVICUS World
Assembly, the U.S.-Mexico Border Philanthropy Partnership and the World Conference of the
Institute for Cultural Affairs in Guatemala.

“Investing in People,” a half-day seminar held May 4 and co-sponsored by the IAF and the
Permanent Mission of the U.S. to the OAS, introduced the Permanent Council of the OAS to the
IAF’s contemporary approach to democratic grassroots development involving three sectors:
corporate foundations; associations of U.S.-based migrants; and elected community leaders.
Representatives from grantees who work daily with these sectors shared their experience with the
audience in the Hall of the Americas: Fernando Castellanos, Executive Director of Fundación
Zonamerica, Uruguay, discussed RedEAmérica. Jesús Aguilar, Executive Director, Centro de
Recursos Centro Americanos (CARECEN International- El Salvador), described how the IAF is
working with collective remittances sent by hometown associations to their communities of origin.
Rubén Calle, President, Asociación de Parroquias Rurales, Ecuador, explained how his organization
promotes discussions on policy at the grassroots level.




                                                  23

Grassroots Development 2004 includes an interview with David Valenzuela on local development,
meaning development on which a basic unit of government collaborates with citizens. Eduardo
Rodríguez-Frías’ “Developmental Abilities” described the self- help efforts of disabled people as a
step toward their engagement as full citizens.
In Fiscal Year 2004, Lester Salamon’s article summarizing his work with civil society, “The Third
Sector in Global Perspectives,” published in Grassroots Development Vol. 23, No. 1, was selected
for inclusion in the Lexis Nexis database. The ILO’s Delnet program reprinted on its Internet
database part of “IAF’s Argentine Grantees: Caught in the Crisis,” by Paula Durbin, Grassroots
Development 2003, Vol. 24, No. 1, and Vanessa Gray of the University of Massachusetts-Lowell
used the whole article in her political science class. “I am increasingly using case studies of positive
social change to supplement and even replace traditional textbooks,” Gray wrote on December 7,
2003. “I like the IAF materials because they depict ethnically diverse Latin Americans who are
active agents in trying to improve their lives. (Pictures of real Latin Americans are so rare and yours
are beautiful!) IAF projects also offer a jumping off point for discussions about the political,
economic, social, and ideological obstacles to more efforts of that type. The Argentina piece will be
a perfect complement to discussions of the decline of living standards in that country. I also use one
of the IAF’s journal articles on Bogotá’s recyclers in my Global Environmental Politics course.”


                   Identification of Key Factors that Could Affect Achievement
                                  of General Goals and Objectives

The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health problems,
weather and natural disasters, fragile agriculturally, and unstable politically. International
phenomena such as markets, wars, and foreign investment also may affect planned activities. Yet
only rarely do IAF-funded projects fail as a result of such factors.




                                                   24

                                          Fiscal Year 2004


                 Analysis of Financial Statements and Stewardship Information

                            Systems, Controls, and Legal Compliance



Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during the
year. Program costs of $24,485,217 reflected an increase from the Fiscal Year 2003 amount of
$22,218,502, an increase of $2,266,715 in resources used.

Personnel compensation and benefits increased from $4,547,047 in Fiscal Year 2003 to $4,550,138
in Fiscal Year 2004, reflecting an increase of only $3,090. In Fiscal Year 2004, Contractual Services
reflected resources used of $3,946,359. The difference of $1,494,555 from Fiscal Year 2003, which
reported $2,451,804 in resources used, reflects an increase of approximately 61 percent. Several
factors contributing to this change include the obligation of a new contract to conduct independent
evaluations of select program grants, increased technical assistance to grantees, as well as cost
increases in inter-agency agreements for franchise services in information technology security and
network administration.

Improved use of resources reflected improvements in costs of Printing and Reproduction (for the
second subsequent year), Transportation of Things and Insurance Claims and Indemnities. Grants
and Subsidies noted an increase of $592,026 in Fiscal Year 2004.


                           FY04 NET COST OF IAF CORE FUNCTIONS



                                          Rent: 2%              Personnel: 19%

                                                                           Operating
                                                                          Services: 3%



                         Grants: 60%


                                                               Other Program
                                                               Activities: 16%




                                                 25

Fiscal Year 2004 noted $24,028,007 in Obligations Incurred. As shown in the Pie Chart below,
Delivered Orders was $23,971,134 representing 99.8 percent of Net Obligations Incurred.
Undelivered Orders was $56,942 representing 0.2 percent of Net Obligations Incurred.

The chart below shows the net obligations incurred for Fiscal Year 2004.



                            FY04 NET OBLIGATIONS INCURRED


                        Undelivered
                         Orders-­
                        Obligations
                         Incurred:
                          $56,942

                                                                  Delivered
                                                                  Orders --
                                                                 Obligations
                                                                    Paid:
                                                                 $23,971,134




                                                26

                             Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for Fiscal Years 2004
and 2003 were $41,597,956 and $38,451,341, respectively. The difference of $3,146,615 is due to a
net increase in the Social Progress Trust Fund (SPTF) collections in FY 2004 and a cancellation of
$572,443 in Fiscal Year 1998/1999 appropriated funds, which expired in FY 2004. The SPTF
agreement was amended during Fiscal Year 2002 to provide all remaining funds to the IAF until
they are exhausted, in approximately 15 years. See Note One in the Financial Statements for
funding source and Note Seven for the end-of-year net position.


                              Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the statements have
been prepared from the books and records of the entity in accordance with the formats prescribed by
the Office of Management and Budget, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same books and records.




                                                 27

Independent Auditor's Report on Financial Statements

Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.

We have audited the accompanying Balance Sheets of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of September 30, 2004 and 2003, and the related Statements of Net
Cost, Changes in Net Position, Budgetary Resources and Financing for the years then ended. These
financial statements are the responsibility of the management of the IAF. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and the Office of Management
and Budget Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the IAF as of September 30, 2004 and 2003, and its net costs, changes in net
position, budgetary resources, and the reconciliation of budgetary obligations to net cost for the
years then ended in conformity with generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph of this report as a whole. The information presented in IAF Management’s
Discussion and Analysis (Overview) section is not a required part of the financial statements but is
supplementary information required by OMB Bulletin No. 01-09, Form and Content of Agency
Financial Statements. Although we have read the information presented, such information has not
been subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated October 22,
2003 on our consideration of the IAF's internal control over financial reporting, and on our tests of
its compliance with certain provisions of applicable laws and regulations. These reports are an
integral part of an audit performed in accordance with Government Auditing Standards, and, in
considering the results of the audit, these reports should be read in conjunction with this report.

/s/

Gardiner, Kamya & Associates, P.C
October 22, 2003



                                                  28

                                        Inter-American Foundation
                                            BALANCE SHEETS
                                     As of September 30, 2004 and 2003
                                                (in dollars)
                                                                                          restated
                                                                         2004               2003
ASSETS:
  Intragovernmental:
     Fund Balance With Treasury (Note 2)                             $   41,597,956   $ 38,451,341
     Total Intragovernmental                                             41,597,956     38,451,341

      General Property, Plant and Equipment, net (Note 4)                   10,716            16,115
      Grant Advances and Prepayments (Note 3)                            3,933,182         3,615,630

Total Assets                                                         $ 45,541,854     $ 42,083,086

LIABILITIES:
  Intragovernmental
     Accounts Payable                                                $         127    $          127
     Other                                                                  28,103            34,766
     Total Intragovernmental                                                28,230            34,893

      Accounts Payable                                                       74,541           47,960
      Other                                                               1,187,993          635,861

Total Liabilities (Note 5)                                                1,290,764          718,714

NET POSITION:
Unexpended Appropriations (Note 7)                                     16,425,074       18,097,429
Cumulative Results of Operations (Note 7)                              27,826,016       23,266,943
Total Net Position                                                   $ 44,251,090     $ 41,364,372

Total Liabilities and Net Position                                   $ 45,541,854     $ 42,083,086




      The accompanying notes are an integral part of these financial statements




                                                    29

                                  Inter-American Foundation
                                STATEMENTS OF NET COST
                        For the year ended September 30, 2004 and 2003
                                          (in dollars)

                                                                2004                     2003
Program Costs:
   Intragovernmental Gross Costs                            $    1,927,473       $       1,965,811

  Gross Costs With the Public                                   22,557,743           20,252,691
    Total Net Cost                                              24,485,216           22,218,502

Net Cost of Operations (Note 8)                            $    24,485,216       $   22,218,502




             The accompanying notes are an integral part of these financial statements




                                                          30

                                                      Inter-American Foundation
                                                   STATEMENTS OF CHANGES
                                                           IN NET POSITION
                                          For the year ended September 30, 2004 and 2003
                                                             (in dollars)



                                                                           2004                                        Restated 2003
                                                            Cumulative                                Cumulative
                                                              Results              Unexpended           Results                       Unexpended
                                                           of Operations          Appropriations     of Operations                   Appropriations

Beginning Balances                                        $   23,266,943          $    18,097,429    $    1,177,584          $          31,191,649

Prior period adjustments (Note 10)                                     -                        -         13,626,683                    (13,626,683)
Beginning balances, as adjusted                               23,266,943               18,097,429        14,804,267                     17,564,966

Budgetary Financing Sources:
                Appropriations Received                                                16,334,000                                       16,200,000
                Other Adjustments (Recissions, etc.)                                    (668,814)                                       (703,062)

                 Appropriations Used                          17,337,541              (17,337,541)       14,964,475                    (14,964,475)
                 Nonexchange revenue - SPTF
                     collections     (Note 9 and 10)          11,402,562                                 15,256,966
                 Donations and forfeitures of cash
                     and cash equivalents                         50,000                                           -
Other Financing Sources:
                 Imputed Financing from Costs
                     Absorbed by Others                          254,186                         -          459,737                                  -
Total Financing Sources                                       29,044,289               (1,672,355)       30,681,178                            532,463
Net Cost of Operations from SPTF                               6,858,007                                  6,805,341
Net Cost of Operations from Gift Fund                             78,345                                     49,287
Net Cost of Operations from Appropriations                    17,548,864                                 15,363,874

Net Cost of Operations                                        24,485,216                         -     22,218,502                                    -
Ending Balances                                           $   27,826,016          $    16,425,074    $ 23,266,943                $          18,097,429


                                     The accompanying notes are an integral part of these financial statements




                                                                              31

                                        Inter-American Foundation
                              STATEMENTS OF BUDGETARY RESOURCES
                              For the year ended September 30, 2004 and 2003
                                                (in dollars)

                                                                         2004                        2003
BUDGETARY RESOURCES:
Budget Authority
            Appropriations Received                          $        16,334,000           $    16,200,000
Unobligated Balance:
            Beginning of Period                                        9,945,886                 3,656,824
Spending Authority from Offsetting Collections:
            Earned
               Collected                                              11,452,562                15,256,966
Subtotal                                                              37,732,448                35,113,790
Recoveries of Prior Year Obligations
            Actual                                                       364,429                   265,411
Permanently Not Available
            Cancellations of Expired and No-Year Accounts              (572,441)                  (597,762)
            Pursuant to Public Law                                      (96,371)                  (105,300)

Total Budgetary Resources                                             37,428,065                34,676,139




                   The accompanying notes are an integral part of these financial statements.




                                                       32

                                         Inter-American Foundation
                         STATEMENTS OF BUDGETARY RESOURCES (continued)
                             For the year ended September 30, 2004 and 2003
                                                (in dollars)
  STATUS OF BUDGETARY RESOURCES:
    Obligations Incurred
    Direct
       Category A                                               15,464,041                   16,036,347
       Category B                                                8,563,966                    8,693,906
    Subtotal                                                    24,028,007                   24,730,253

    Unobligated Balance
    Apportioned
       Balance, Currently Available                                   1,327,321                 733,522
    Unobligated Balances Not Available                               12,072,737               9,212,364
   Total Status of Budgetary Resources                               37,428,065              34,676,139




    Obligated Balance, Net, Beginning of
    Period                                                           28,505,455              25,059,743


Undelivered Orders                                                  (27,166,027)            (28,036,196)
Accounts Payable                                                     (1,031,871)               (469,259)

  Outlays
Disbursements                                                        23,971,135              21,019,130
Collections                                                        ( 11,452,564)            (15,256,966)
Subtotal                                                             12,518,571               5,762,164
  Net Outlays                                          $             12,518,571         $     5,762,164




           The accompanying notes are an integral part of these financial statements.




                                                       33

                                                  Inter-American Foundation
                                              STATEMENTS OF FINANCING
                                       For the year ended September 30, 2004 and 2003
                                                         (in dollars)
                                                                                    2004              2003
Resources Used to Finance Activities
Budgetary Resources Obligated
    Obligations Incurred                                                         $ 24,028,007         $ 24,730,253

    Less: Spending Authority from Offsetting Collections and Recoveries            11,816,993          15,522,377

    Obligations Net of Offsetting Collections and Recoveries                        12,211,014          9,207,876
Other Resources
    Donations and forfeitures of property                                               50,000                  -
    Imputed Financing from Costs Absorbed by Others                                    254,186            459,737


    Other (Note 9)                                                                  11,402,562         15,256,966

    Net Other Resources Used to Finance Activities                                  11,706,748         15,716,703

Total Resources Used to Finance Activities                                          23,917,762         24,924,579

Resources Used to Finance Items Not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods, Services and
    Benefits Ordered But Not Yet Provided                                            (552,617)          2,736,178
Resources That Fund Expenses Recognized in Prior Periods                                     -             (1,084)

Total Resources Used to Finance Items Not Part of the Net Cost of
Operations                                                                           (552,617)          2,735,094


Total Resources Used to Finance the Net Cost of Operations                          24,470,379         22,189,485


                         The accompanying notes are an integral part of these financial statements.




                                                               34

                                             Inter-American Foundation

                                   STATEMENTS OF FINANCING (continued)

                                  For the year ended September 30, 2004 and 2003

                                                    (in dollars)





Components of the Net Cost of Operations That Will Not Require or
   Generate Resources in the Current Period

Components Requiring or Generating Resources in Future Periods:

Increase in Annual Leave Liability                                                   9,438               23,579
Total Components of Net Cost of Operations That Will Require or
Generate Resources in future periods                                                 9,438               23,579

Components not Requiring or Generating Resources:
    Depreciation and A mortization                                                   5,399                 5,438
    Total Components of Net Cost of Operations That Will Not Require or
     Generate Resources                                                              5,399                 5,438

Total Components of Net Cost of Operations That Will Not Require or
   Generate Resources in the Current Period                                         14,837                29,017

Net Cost of Operations                                                       $24,485,216             $22,218,502




                         The accompanying notes are an integral part of these financial statements




                                                        35

                                  Inter-American Foundation

                                 Notes to Financial Statements

                       For the years ended September 30, 2004 and 2003


Note 1.    Summary of Significant Accounting Policies

A.     Reporting Entity

The Inter-American Foundation (The Foundation), a U.S. government corporation, was established
pursuant to part IV of the Foreign Assistance Act of 1969 (22 U.S.C. 290f (a)). The Foundation
provides grants to help non-governmental and community-based organizations in Latin America and
the Caribbean implement their own ideas for development and poverty reduction.

The management of The Foundation is vested in a nine-person Board of Directors appointed by the
President of the United States. Six Board members are drawn from the private sector and three from
among officers or employees of agencies of the U.S. Government concerned with inter-American
activities. The Board appoints The Foundation’s president who acts as the chief executive officer.

B.     Basis of Presentation

These financial statements are provided to meet the requirements of the Government Management
and Reform Act (GMRA) of 1994. The statements consist of the Balance Sheet, Statement of Net
Cost, Statement of Changes in Net Position, Statement of Budgetary Resources and Statement of
Financing.

These financial statements have been prepared to report the financial position and results of
operation of The Foundation. These statements were prepared from the books and records of The
Foundation in conformity with accounting principles generally accepted in the United States, and the
Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Agency
Financial Statements.

The amounts in the FY 2003 Statement of Changes in Net Position, Statement of Financing and Note
2 to the financial statements have been reclassified or restated to facilitate a more meaningful
comparison between FY’s 2004 and 2003.

C.     Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the accrual
method, revenues are recognized when earned and expenses are recognized when liabilities are
incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates compliance
with legal constraints and controls over use of Federal funds.

To assist OMB in recommending and publishing comprehensive accounting standards and principles
for agencies of the Federal Government, the Secretary of the Treasury, the Comptroller of the United
States, the Director of OMB, and the Joint Financial Management Improvement Program (JFMIP)



                                                36

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003


Note 1.    Summary of Significant Accounting Policies (continued)

established the Federal Accounting Standards Advisory Board (FASAB) in 1990. The American
Institute of Certified Public Accountants (AICPA) Council designated FASAB as the accounting
standards authority for Federal government entities.

D.     Funding Sources

The Foundation’s grant program is funded by (1) appropriation from the budget of the United States,
(2) agreement with the Inter-American Development Bank covering the Social Progress Trust Fund
(SPTF), and (3) donations from the private sector. No-year appropriations remain available until
expended, while multi- year appropriations are available for the period prescribed by the applicable
statute. Appropriations are used, within statutory limits, for programmatic, operating and capital
expenditures for essential personal property. Appropriations are recognized as revenues at the time
the related program or administrative expense are incurred. Appropriations expended for capitalized
property and equipme nt are recognized as expenses when an asset is consumed in operations.

The Foundation has an agreement with the Inter-American Development Bank (IDB) to receive
funds from the SPTF to finance part of The Foundations grant program. The IDB is an international
financial organization established to promote the economic and social development of member
countries. The United States’ participation in IDB is authorized and governed by the Inter-American
Development Bank Act (22 U.S.C. 283). Within the Bank, the United States established the SPTF in
1961 and provided appropriations to SPTF through 1964. The Bank was designated as the
administrator for the SPTF and committed the original SPTF appropriations to loans. Repayments
of these loans are recycled by the IDB in accordance with the original agreement and subsequent
provision for additional loans, technical cooperation programs, and financing of the Inter-American
Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, the Bank provides funds to
finance social development projects. These funds are made available in U.S. dollars upon request by
the Foundation, subject to denomination availability and exchange controls. In 2002, the STPF
agreement was amended to make available all remaining funds until exhausted.

E.     Fund Balance with Treasury

Funds with the Department of the Treasury primarily represent appropriated funds and SPTF
collections that are available to pay current liabilities and finance authorized purchase commitments
and SPTF grants. See Note 2 for additional information.




                                                 37

                                    Inter-American Foundation

                                   Notes to Financial Statements

                         For the years ended September 30, 2004 and 2003


Note 1.      Summary of Significant Accounting Policies (continued)

F.        Accounts Receivable

Intra- governmental accounts receivable represent amounts due from other governmental agencies.
Non-governmental accounts receivable represent amounts due from non-federal entities.

G.        Advances and Prepayments

Payments in advance of receipt of goods and services are recorded as prepaid charges at the time of
the prepayment and recognized as expenditures/expenses when the related goods or services are
received. See Note 3 for additional information.

H.        General Property, Plant, and Equipme nt, Net

The Foundation’s property, plant and equipment is recorded at cost and is depreciated using the
straight- line method over the estimated useful life of the asset. Major alterations and renovations are
capitalized, while maintenance and repair costs are charged to expense as incurred. The
Foundation’s capitalization threshold is $50,000 for individual purchases and $500,000 for bulk
purchases. Service lives are shown below. See Note 4 for additional information.

Description                           Life
ADP Equipment                          3
Office Furniture and Equipment        10

I.        Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by The Foundation as
a result of transactions or events that have already occurred. No liability can be paid, however,
absent an appropriation or SPTF funding. Liabilities for which an appropriation has not been enacted
or SPTF funds received are, therefore, classified as not covered by budgetary resources, and there is
no certainty that the appropriation will be enacted. Also, the Government, acting in its sovereign
capacity, can abrogate liabilities.

J.        Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts payable.

K.        Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. Each year, the
balance in the accrued leave account is adjusted to reflect current pay rates. To the extent current or


                                                  38

                                        Inter-American Foundation

                                       Notes to Financial Statements

                             For the years ended September 30, 2004 and 2003

Note 1.      Summary of Significant Accounting Policies (continued)

prior year appropriations are not available to fund annual leave earned but not taken, funding will be
obtained from future financing sources. Sick leave and other types of nonvested leave are expensed
as taken.

L.        Retirement Plans

The Foundation’s employe es participate in the Civil Service Retirement System (CSRS) or the
Federal Employees’ Retirement System (FERS). FERS was established by the enactment of Public
Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most employees
hired after December 31, 1983. Employees hired before January 1, 1984 elected to join either FERS
and Social Security or remain in CSRS.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and The Foundation makes a
mandatory 1 percent contribution to this account. In addition, The Foundation makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to their TSP
accounts. In accordance with Federal employee benefit policies, matching contributions are not
made to the TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the Social
Security program after retirement. In these instances, The Foundation remits the employer’s share of
the required contribution. The Foundation’s contribution to employee pension plan were $416,115
for Fiscal Year 2004 and $631,571 for Fiscal Year 2003. In addition, The Foundation costs for
health and life insurance were $339,948 for Fiscal Year 2004 and $301,668 for Fiscal Year 2003.

The Foundation does not report on its financial statements information pertaining to the retirement
plans covering its employees. Reporting amounts such as plan assets, accumulated plan benefits,
and related unfunded liabilities, if any, is the responsibility of the Office of Personnel Management.

M.        Grant Disbursements and Administrative Expenses

Grant disbursements include payments in advance of performance under contractual obligations.
Evidence of performance is determined by review of periodic expenditure reports. All Foundation
expenditures for grants over $35,000 are independently verified using The Foundation’s audit
guidelines. The Foundation’s administrative expenses are funded solely by appropriated funds.

N.        Imputed Costs/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities.


                                                  39

                                     Inter-American Foundation

                                    Notes to Financial Statements

                          For the years ended September 30, 2004 and 2003


Note 1.      Summary of Significant Accounting Policies (continued)

The Foundation recognized imputed costs and financing sources in fiscal years 2004 and 2003 to the
extent directed by the OMB.

O.        Non-Entity Assets and Liabilities

The Foundation did not hold any Non-Entity assets or liabilities as of September 30, 2004 and 2003.

Note 2.      Funds with U.S. Treasury

Entity fund balance includes balances that are available to pay liabilities and to finance authorized
purchase and grant commitments. The Foundation maintains all funds with the United States
Treasury.


Fund Balances                               FY 2004           FY 2003

   Appropriated Fund                      $ 15,675,996      $ 16,679,598 


      Gift Fund                                    35,661        124,384

      Social Progress Trust Fund (SPTF)        25,886,299     21,647,359 

Total Entity Funds                            $ 41,597,956 $ 38,451,341 



Status of Fund Balance with Treasury

Unobligated Balance

  Available                               $     1,327,321 $      733,522 


     Unavailable                               12,072,737      9,212,364

Obligated Balance not yet Disbursed         28,197,898   28,505,455
Total                                     $ 41,597,956 $ 38,451,341




                                                   40

                                  Inter-American Foundation

                                 Notes to Financial Statements

                       For the years ended September 30, 2004 and 2003




Note 3.       Advances and Prepayments

Grant payments are recorded as an advance and amortized over the estimated useful period covered
by the agreement. First time grant payments are amortized over an eight- month period. Subsequent
payments are amortized over a six- month period. Prepayments are also made to select government
agencies and vendors in advance of receiving the goods or service. Advances are also permitted for
employee travel, although none were outstanding at the end of either 2004 or 2003. Advances and
prepayments are detailed as follows:

  Advances and Prepayments                           FY 2004            FY 2003
   Prepayments other than Grant Advances        $     45,293        $    49,981
   Grant Advances                                  3,887,889          3,565,649
  Total Advances and Prepayments                $ 3,933,182         $ 3,615,630




                                               41

                                    Inter-American Foundation

                                   Notes to Financial Statements

                         For the years ended September 30, 2004 and 2003



Note 4.        Property, Plant and Equipment

The balance of Property, Plant and Equipment is as follows:
 Schedule of Property, Plant and Equipment as of September 30, 2004
                      Depreciation Service Acquisition Accumulated                Net Book
    Description          Method         Life        Cost     Depreciation           Value
 ADP Equipment        Straight Line 3 years $ 127,893 $           127,893         $       -
                                         10
 Office Furniture     Straight Line    years        106,077         95,362             10,716
  Total                                           $ 233,970        $    223,255   $    10,716

Schedule of Property, Plant and Equipmemt as of September 30, 2003
                     Depreciation Service Acquisition Accumulated                 Net Book
   Description          Method         Life      Cost      Depreciation             Value
ADP Equipment        Straight Line 3 years $ 127,893 $           127,893          $       -
                                        10
Office Furniture     Straight Line    years       108,011         91,896               16,115
 Total                                         $ 235,904 $       219,789          $    16,115


Note 5.        Liabilities

The accrued liabilities for The Foundation are comprised of program expense accruals, payroll
accruals, and unfunded annual leave earned by employees. Program expense accruals represent
expenses that were incurred prior to year-end but were not paid. Similarly, payroll accruals represent
payroll expenses that were incurred prior to year-end but were not paid.


Schedule of Liabilities
Liabilities Covered by Budgetary Resources                      FY 2004               FY 2003
  Intragovernmental
     Accounts Payable                                          $         127      $        127

      Program Expenses                                                  1,492            12,671

      Payroll Taxes Payable                                            26,611            22,096

   Total Intragovernmental                                             28,230            34,893




                                                  42

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003



Note 5.        Liabilities (continued)

Program expences

   Personnel Benefits/MetroPool                             15,000           6,000

   Rent                                                     22,000               ­
   Staff travel, training, printing, equipment
   maintenance, supplies, non-capt.equiptment               35,452               ­

   Maintenance of equipment                                       -         25,354
   Staff travel, training, printing, communications
   and mail services                                              -         50,884
   Supplies & non - capitalized equipment                         -         20,757

   Program conference support                              251,000         100,000

   Grant monitoring services (DVs)                         203,000               ­

   Local advisory service contracts for grantees           105,000          58,387

   Research on corporate responsibility                     42,000               ­

   Grant audits                                             56,000          55,037

   Misc. Services, Program                                  74,000               -

   Misc. Services, Program Support                           7,977               ­

   Accts. Payable                                           74,541               ­

   Minus GPO                                                (1,492)              ­

Total Program expenses                                     844,478         316,419


Payroll accrual                                            117,509         116,592

Payroll taxes payable                                        1,654           1,354


                                                   43

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003



Note 5.        Liabilities (continued)



Total liabilities covered by budgetary resources             1,031,872         469,259

Liabilities not covered by budgetary resources

Unfunded leave                                                258,893          249,456

Total liabilities                                        $ 1,290,764     $     718,715

Other governmental liabilities:
Accruals shown above                                     $    809,937        $ 291,909

Payroll Accruals                                              117,509           93,143

Payroll taxes payable                                           1,654            1,354

Unfunded leave                                               258,893           249,456
                                                         $ 1,187,993     $     635,861




                                                   44

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003



Note 6.       Commitments and Contingencies

In the course of its grant- making activities, The Foundation has unliquidated grant obligations
which, in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2004 and 2003 total approximately
$25,250,000 and $23,700,000, respectively.

As of September 30, 2004 and 2003, there were no obligations due to canceled appropriations for
which there is a contractual commitment for payment.

Note 7.       Net Position

The Inter-American Foundation’s net position is composed of unexpended appropriations and the
cumulative results of operations. Net position as of September 30, 2004 and 2003 consisted of the
following:




                                               45

                                     Inter-American Foundation

                                    Notes to Financial Statements

                          For the years ended September 30, 2004 and 2003




Note 7.        Net Position (continued)

                                                            FY 2004          FY 2003
          Unexpended appropriations
           Unobligated
                Available                             $    1,177,180   $     654,697

                Unavailable                                2,353,246        2,397,884

           Undelivered Orders                             12,894,649       15,044,848

           Total unexpended appropriation             $ 16,425,074     $ 18,097,429


           Cumulative Results of Operations               27,826,016       23,266,943

           Net Position                               $ 44,251,090     $ 41,364,372

           Reconciliation to Statement of Budgetary Resources
            Unobligated available
              SPTF                                    $    150,141     $      78,826

               Appropriations                              1,177,180         654,697
             Total Unobligated available              $    1,327,321   $     733,522

            Unobligated unavailable
              SPTF                                    $    9,719,491   $    6,814,480

               Appropriations                              2,353,246        2,397,884
             Total Unavailable                        $ 12,072,737     $    9,212,364
           Total Unobligated unavailable
           Undelivered orders
              SPTF                                    $ 14,271,379     $ 12,991,348

              Appropriations                            12,894,649       15,044,848
           Total Undelivered orders                   $ 27,166,027     $ 28,036,196



                                                46

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003



Note 8.       Program Costs

                                                                    FY 2004          FY 2003

Personnel compensation                                            $ 3,442,628    $    3,285,771
Personnel benefits other than pension, health, and life insurance      351,447          328,017
Pension – CSRS                                                        114,139            96,614
Pension – FERS                                                         301,976          534,957
Health insurance                                                       333,565          295,444
Life insurance                                                           6,383             6,244
Travel and transportation of persons                                   390,077          409,370
Transportation of things                                                 9,248            7,574
Rents, communication, utilities and misc. charges                      719,958          408,324
Printing and reproduction                                               73,946          108,294
Other services                                                       3,946,359        2,451,804
Supplies and materials                                                  35,727           34,211
Equipment                                                               15,997          100,136
Grants, subsidies, and contributions                                14,743,767       14,151,742


 Total                                                           $24,485,217     $ 22,218,502



Note 9.       Financing Sources - SPTF

The Statement of Financing reconciles the Financial Net Cost of Operations with obligation of
budget authority. The Foundation’s Statement of Budgetary Resources is based on its SF-133 in
which The Foundation reports SPTF funds obtained from the IDB as offsetting collections earned.
The Foundation had no exchange revenue in fiscal year 2003 or 2004. For fiscal year 2004, The
Foundation received $11,402,563 from the IDB, which was reported on its SF-133 as funds received
from SPTF collections. For fiscal year 2003, The Foundation received $15,256,966 from the IDB,
which was reported in its SF-133 as funds received from SPTF collections.




                                                 47

                                       Inter-American Foundation

                                      Notes to Financial Statements

                            For the years ended September 30, 2004 and 2003




Note 9.         Financing Sources – SPTF (continued)

                                                 FY 2004            FY 2003
SPTF cumulative results
  SPTF beginning balance                     $ 23,304,194       $ 14,852,568
  SPTF funds received                            11,402,563         15,256,966
  SPTF funds expended                            (6,858,007)        (6,805,341)
SPTF fund carry forward                      $ 27,848,749       $ 23,304,194


Donations cumulative results
  Donations beginning balance                $     127,205      $     176,492
  Donations received                                50,000                    -
  Donations expended                                (78,345)          (49,287)
  Donations carry forward                    $      98,860      $     127,205


Total SPTF and Donations                     $ 27,947,609       $ 23,431,399
Unfunded Leave and Accumulates
  Depreciation from Appropriated Funds             (121,593)          (164,456)
Total Cumulative Results of Operations for
  SPTF, Gift and Appropriated Funds          $    27,826,016   $     23,266,943



Note 10.        Restatement of Prior Financial Statements

In FY 2003 and prior periods, the Inter - American Foundation collected receipts of Social Progress
Trust Fund Revenues, with these collections being recorded as appropriation transfers. Consultation
with the Financial Management Services’ USSGL Issues team and the Office of Management and
Budget concluded that this was not the proper accounting treatment for these transactions. FMS and
OMB have determined that these collections should be displayed as a Non-Exchange Revenue and
not as a ‘Transferred Appropriation’.

Given the decision of FMS and OMB, the Inter - American Foundation is restating the Statement of
Changes in Net Position and the Balance Sheet for FY 2003. This restatement of balances will
facilitate the correction of an error due to an oversight of facts that existed at the time the financial
statements were prepared. Since the financial statements are presented in a comparative



                                                       48

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003



Note 10.       Restatement of Prior Financial Statements (continued)

format and this error occurred in FY 2003 and prior periods, the FY 2003 comparative data is being
restated and the beginning of cumulative results of operation and unexpended appropriations in the
Statement of Changes in Net Position are being adjusted.
Absent the correction of these errors, cumulative results of operations for FY 2003 would have
been understated by $13,626,683 and the change in net position would have been overstated by
$13,626,683.

Additionally, in prior periods, the SPTF collections have been presented on the Statement of
Changes in Net Position as a Budgetary Financing Source – Appropriation Transferred In. Given the
inaccuracy of this methodology and the lack of Congressional authority to support the receipt of
transferred appropriations, these amounts have been presented as Non Exchange Revenue on the
Statement of Change in Net Position. This approach is not expected to change in the foreseeable
future.

Note 11.	      Explanation of Differences Between the Statement of Budgetary
               Resources and the Budget of the United States Government

The 2006 Budget of the United States Government, with the Actual Column completed for fiscal
year 2004, has not yet been published as of the date of these financial statements. The Budget is
currently expected to be published and delivered to Congress in early February 2005. The 2005
Budget of the United States Government, with the Actual Column completed for fiscal year 2003,
has been reconciled.


Note 12.	      Operating Lease

The Foundation occupies office space under a lease agreement, which is accounted for as an
operating lease. The Foundation entered into a lease agreement that will expire on March 31, 2012.
Lease payments are increased annually based on The Foundation’s proportionate share of the
building’s operating expenses and real estate taxes. The new agreement allows The Foundation an
abatement credit in lieu of a build-out allowance that will be deducted from the monthly rent for the
first 26 months of the lease. Total net rental expense was $589,046 for fiscal year 2004 and
$408,324 for fiscal year 2003. Future minimum lease payments for office space as of September 30,
2004 are detailed below:




                                                 49

                                   Inter-American Foundation

                                  Notes to Financial Statements

                        For the years ended September 30, 2004 and 2003




Note 12.        Operating Lease (continued)


   Schedule of Future Operating Lease
                Payments

                                FY 2004

FY 2005                        $576,157 

FY 2006                         590,186 

FY 2007                         604,566 

FY 2008                         619,305 

FY 2009                         634,413 

After 5 years                   649,898 


Total Future Payments      $   3,674,525




                                              50

Independent Auditor's Report on Internal Control


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2004 and 2003, and have
issued our report thereon dated October 22, 2003. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of
the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

In planning and performing our audits, we considered the IAF’s internal control over financial
reporting by obtaining an understanding of the IAF’s interna l control, determined whether internal
controls had been placed in operation, assessed control risk, and performed tests of controls in order
to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982,
such as those controls relevant to ensuring efficient operations. The objective of our audits was not
to provide assurance on internal control. Consequently, we do not provide an opinion on internal
control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are
matters coming to our attention relating to significant deficiencies in the design or operation of the
internal control that, in our judgment, could adversely affect the IAF’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. However, we noted no matters involving the internal control
and its operation that we consider to be material weaknesses as defined above.

In addition, with respect to internal controls related to performance measures reported in the
Management’s Discussion and Analysis (MD&A), we obtained an understanding of the design of



                                                 51

significant internal controls relating to the existence and completeness assertions, as required by
OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and, accordingly, we do not provide an opinion on such
controls.

This report is intended solely for the information and use of the management of the Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for International
Development, the Office of Management and Budget (OMB), and Congress, and is not intended to
be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.

October 22, 2003




                                                52

    Independent Auditor's Report on Compliance with Laws and Regulations

Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2004 and 2003, and have
issued our report thereon dated October 22, 2003. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of
the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

The management of the IAF is responsible for complying with laws and regulations applicable to the
agency. As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of the IAF’s compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph exclusive of FFMIA disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at the
transaction level. The Administrative Resource Center of the Franchise Fund, Bureau of Public Debt,
performs the accounting and reporting functions for the IAF. We are not the auditors of the
Franchise Fund and did not perform tests of compliance with the FFMSR using the implementation
guidance included in Appendix D of OMB Bulletin No. 01-02. Those tests were performed by other
auditors whose report has been furnished to us. Our report, insofar as it relates to FFMSR
compliance, is based solely on the report of the other auditors.

The report of the other auditors on the substantial compliance of the IAF with the requirements of
FFMSR disclosed no instances of substantial non compliance with the FFMSR. Our audit tests
disclosed no instances in which IAF did not substantially comply with Federal accounting standards
and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.


                                                53

This report is intended solely for the information and use of the management of the Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for International
Development, the Office of Management and Budget (OMB), and Congress, and is not intended to
be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.

October 22, 2003




                                               54

